Audit Report

Office of Justice Programs, Bureau of Justice Assistance, Judicial Education and Training Grant Awarded to The National Judicial College, Grant Number 2000-DD-VX-0018, Reno, Nevada

Report No. GR-90-04-012


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Judicial Education grant, including four supplements, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to the National Judicial College (NJC), located in Reno, Nevada.  The purpose of this grant is to advance justice through judicial education.  The NJC awards financial assistance to state judges taking eligible NJC courses with elements of drugs and substance abuse or crime in the curriculum.  The NJC educates judges by presenting courses in faculty development in the following subject matters: (1) Tribal faculty development; (2) Faculty development workshop; (3) Creating an active learning environment; (4) Faculty development on distance learning;        (5) Integrating cultural, race, and gender issues into judicial education; and (6) Managing sex offenders.  Also, the NJC produces publications and makes improvements to its curriculum.  As of September 30, 2003, the NJC was awarded a total of $4,943,600 to provide judicial education and training.  We tested the NJC's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

At the time of our audit, the NJC had been reimbursed $3,657,983 as of December 31, 2003.  We identified deficiencies in the areas of accounting records, grant expenditures, and in measuring grant objectives.  In brief, we found that the NJC: 

Did not ensure that there were adequate internal controls over the approval of payroll and financial assistance award expenditures.

	Did not establish outcome performance measures to adequately evaluate the grant's effectiveness in achieving its goals.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.